March 17, 2010

VINCENT H. DEVITO, JR
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Evaluation of Locally Issued Salary Advances
         (Report Number FF-AR-10-122)

This report presents the results of our evaluation of locally issued salary advances
(Project Number 09BO002FF004). The U.S. Postal Service Office of Inspector General
(OIG) performed this self-initiated audit to test selected transactions, address financial
risk, and provide feedback to management to improve financial operations nationwide.
The objectives of this audit were to determine whether salary advances were properly
authorized and if funds due to the Postal Service were promptly collected. See
Appendix A for additional information about this audit.

Conclusion

The salary advances we reviewed generally were properly authorized and promptly
collected. However, our audit disclosed that some advances did not meet the criteria to
be issued and others could have been avoided. Further, some advances we reviewed
were not always promptly collected. Collection of certain salary advances is a manual
process. Specifically, over 7,000 advances totaling $5.9 million issued from October
2008 through May 2009, representing almost one-fourth of the total number of salary
advances issued, had to be collected manually from employees. While we noted a
nearly $3 million reduction in the number of salary advances issued nationally from
2008 to 2009 and increased collection efforts, we believe risk continues to exist in the
issuance and collection processes.1

Some Salary Advances Were Avoidable or Should Not Have Been Issued

Based on our testing of 688 salary advances (totaling $463,826 and issued at 50 retail
units), we identified 64 salary advances2 totaling $33,026 the Postal Service should not
have issued or could have avoided. Our audit disclosed, in some instances, supervisors
knowingly violated policy in issuing these advances and, in other instances, issued
advances because timekeeping and grievance information was not input timely. It is
important for local supervisory personnel to adhere to policy and place greater

1
  From October 1, 2008, through May 31, 2009, there were 5,072 units that had issued 15,840 advances totaling
$9,195,442.
2
  These instances occurred at three retail units.
Evaluation of Locally Issued Salary Advances                                                  FF-AR-10-122



emphasis on timely input of data to mitigate the cost of unnecessary or avoidable salary
advances. See Appendix B for our detailed analysis of this topic.

We recommend the vice president, controller:

1. Re-emphasize the policy and requirements for issuing salary advances.

Management’s Comments

Management agreed with our finding and recommendation and stated that Retail Digest
published an article on March 6, 2010, which reiterated the current policy and provided
a table for an intuitive decision process. Management also stated they will publish a
Postal Bulletin article by June 30, 2010, that will provide a detailed outline of the
process for collecting locally issued salary advances. See Appendix D for
management’s comments in their entirety.

Outstanding Advances Were Not Always Promptly Collected

Management did not always monitor and employees did not always promptly clear
salary advances.3 Of the 50 units we sampled, personnel at 33 units had not collected
507 salary advances totaling $333,816. These advances were issued between October
2000 and June 2009. As a result of our audit, of the $333,816 outstanding,
management took action to collect or eliminate $146,765, leaving $187,051
outstanding.4 Employees provided various reasons as to why they did not always
promptly collect advances, including supervisors being unaware that advances were
outstanding and collection not being a priority. In addition, we noted Postal Service
personnel had differing opinions as to which manager was responsible for collecting
those advances issued at retail units for processing and distribution plant employees.

Specifically, Handbook F-101 states that the office issuing the advance is responsible
for collecting it. However, the Employee and Labor Relations Manual states the
postmaster or installation head is responsible for collecting any debt an employee owes
to the Postal Service.

Advances issued in Account Identifier Code (AIC) 554, Payroll Adjustment Payment
Issued, are collected automatically through the payroll process. However, salary
advances issued in AIC 754, Authorized Emergency Salary Issued, are collected
manually by local officials. The risk of not collecting advances due to a manual
collection process could potentially be mitigated through an automated collection
process similar to the process performed for advances issued in AIC 554.

3
  Handbook F-101, Field Accounting Procedures, Section 15-1.3, January 2009, states that, at least once a month,
the postmaster, manager, supervisor or designated employee must reconcile, research, and resolve differences for
employee items in the Accounting Data Mart or the Customer Trust and Employee Narrowcast Report.
4
  Eliminating or writing off the outstanding salary advance occurred due to a variety of reasons, including the fact
there was no longer any supporting documentation for the debt.




                                                          2
Evaluation of Locally Issued Salary Advances                                                 FF-AR-10-122




As discussed with Postal Service personnel, the use of AIC 754 was intended to be
infrequent; thus, local collection efforts were expected to be minimal. However, our audit
disclosed that advances issued in this AIC required local collection and were rather
extensive. Specifically, there were over 7,000 advances totaling $5.9 million issued in
AIC 754 in fiscal year 2009, representing almost one-fourth of the total number of salary
advances issued. While some of these advances may have been erroneously entered
into AIC 754 (rather than AIC 554), the result is that those advances require manual
collection efforts rather than the automated process provided through the payroll
system. See Appendix B for our detailed analysis of this topic.

We consider all $333,816 to be questioned costs, with $254,916 considered
recoverable questioned costs5 and $78,900 considered unrecoverable unsupported
questioned costs.6 See Appendix C for a breakdown of the monetary impact.

We recommend the vice president, controller:

2. Evaluate the feasibility of establishing an automated process for the collection of
   salary advances issued in Account Identifier Code 754, Authorized Emergency
   Salary Issued, and provide best practices to field units for tracking and collection of
   advances until an automated process is established.

Management’s Comments

Management agreed with our finding and recommendation and stated they will explore
and evaluate the possibility of automating the salary advance collection process. They
will provide the results of this study to the OIG by June 30, 2010. Further, management
will also analyze salary advance data by area and district to identify best practices for
managing salary advances and will provide those results to all field units by June 30,
2010.

We recommend the vice president, controller:

3. Clarify Postal Service policy as to who is responsible for collecting efforts for
   advances that are issued at retail units for processing and distribution center
   employees.

Management’s Comments

Management agreed with our recommendation and stated they will clarify Postal
Service policy as to who is responsible for collecting salary advances issued at retail


5
 Recoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.
6
 Unrecoverable cost that are unnecessary, unreasonable, or an alleged violation of law or regulation. These costs
are also not supported by adequate documentation.




                                                         3
Evaluation of Locally Issued Salary Advances                           FF-AR-10-122



units for processing and distribution center employees. Management will publish this
revised policy in the Postal Bulletin by June 30, 2010.

We recommend the vice president, controller:

4. Develop an action plan to collect the $187,051 in outstanding salary advances.

Management’s Comments

Management agreed with our recommendation and stated they will provide the list of
outstanding salary advances to area accounting managers, who will be required to
develop action plans by June 30, 2010, for collecting the outstanding amounts.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to all the recommendations in
the report, and management’s corrective actions should resolve the issues identified in
the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John Wiethop, director, Field
Financial Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

cc:     Joseph Corbett
        Susan M. Brownell
        Dean J. Granholm
        Jack L. Meyer
        Stephen J. Nickerson
        Richard W. Rudez
        Susan A. Witt
        Sally K. Haring




                                               4
Evaluation of Locally Issued Salary Advances                                            FF-AR-10-122



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service issues emergency salary advances to employees in the form of
no-fee money orders if an employee’s check is substantially less than the amount due
or if an employee did not receive a salary check. Postmasters should use AIC 754,
Authorized Emergency Salary Issued, if the employee does not receive a salary check
or AIC 554, Payroll Adjustment Payment Issued, if the check is less than the amount
due. Salary advances issued in AIC 754 are collected by local units. Salary advances
issued in AIC 554 are collected through payroll adjustments. It is the responsibility of the
unit’s postmaster, manager or supervisor to prepare a file documenting each employee
item,7 maintain a log for all unresolved employee salary advances, and pursue
collection of employee debt while adhering to the National Agreement and the
Employee and Labor Relations Manual. Immediately upon receipt of the original or
replacement check, the employee must repay the emergency salary issued. If
unresolved within 2 pay periods, the postmaster, manager or supervisor must initiate
the collections process by issuing the employee a letter of demand. The postmaster or
unit manager is responsible for ensuring appropriate collections of outstanding debt for
active employees under their jurisdiction.

In November 2005,8 Post Offices™ and retail units were required to follow new
procedures for issuing emergency salary advances. This process included a new AIC,
AIC 554, Payroll Adjustment Payment Issued, that automatically collected salary
advances in subsequent pay periods. Previously, all advances were processed by
inputting them into AIC 754.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to determine whether salary advances were properly
authorized and whether funds due to the Postal Service were promptly collected.

To accomplish the objectives, we issued letters to unit personnel requesting information
and documentation to support the high-risk transactions we identified. We judgmentally
selected our sample based on risk from a universe of 5,072 units that had issued
15,840 advances totaling $9,195,442 as of May 31, 2009. We deemed those units with
the highest amounts of salary advances and those with the longest outstanding
advances as having the most risk. Of that 5,072, we selected 50 units that had issued
688 advances totaling $463,826.

We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying the computer records to

7
  Employee items are any unresolved emergency salary issued, advance travel issued, and employee stamp stock
and/or cash credit overages or shortages.
8
  Postal Bulletin 22168, page 11, November 24, 2005.




                                                      5
     Evaluation of Locally Issued Salary Advances                                FF-AR-10-122



     source documents. We used Postal Service instructions, manuals, policies, and
     procedures as criteria to evaluate internal controls and data reliability. We interviewed
     appropriate supervisors and employees as needed at selected units.

     We conducted this performance audit from June 2009 through March 2010 in
     accordance with generally accepted government auditing standards and included such
     tests of internal controls as we considered necessary under the circumstances. Those
     standards require that we plan and perform the audit to obtain sufficient, appropriate
     evidence to provide a reasonable basis for our findings and conclusions based on our
     audit objectives. We believe that the evidence obtained provides a reasonable basis for
     our findings and conclusions based on our audit objectives. We discussed our
     observations and conclusions with management officials on February 3, 2010, and
     included their comments where appropriate. We assessed the reliability of computerized
     data by verifying the computer records to source documents.

     PRIOR AUDIT COVERAGE

     As part of its annual financial statement support work, the OIG completed annual
     installation audits of post offices, stations, and branches and summarized the results in
     capping reports. The report results listed in the table below only address the monitoring
     and clearing of employee items. In addition, the monetary impact column represents the
     combined total of all issues identified in the capping report. Management agreed with
     the findings and recommendations.

                           Report            Final Report   Monetary
    Report Title          Number                 Date        Impact             Report Results
Audit Report –         FF-AR-07-094           2/20/2007             $0     We identified 39 of 108
Fiscal Year 2006                                                           units that did not always
Financial                                                                  comply with procedures
Installation Audit –                                                       for monitoring employee
Post Offices,                                                              items.
Stations, and
Branches
Audit Report –         FF-AR-08-122             3/5/2008    $2.1 million   We identified 34 of 105
Fiscal Year 2007                                                           units that did not monitor
Financial                                                                  employee items or
Installation Audits                                                        promptly clear them.
– Post Offices,
Stations, and
Branches




                                                       6
     Evaluation of Locally Issued Salary Advances                                FF-AR-10-122




                           Report            Final Report   Monetary
    Report Title          Number                 Date        Impact             Report Results
 Audit Report –        FF-AR-09-055           12/26/2008      $819,602     We identified 18 of 105
Fiscal Year 2008                                                           units that did not monitor
Financial                                                                  employee items or
Installation Audits                                                        promptly clear them.
– Post Offices,
Stations, and
Branches
Audit Report –         FF-AR-10-045           12/14/2009    $1.5 million   We identified 17 of 105
Fiscal Year 2009                                                           units that did not monitor
Financial                                                                  employee items or
Installation Audits                                                        promptly clear them.
– Post Offices,
Stations, and
Branches




                                                      7
Evaluation of Locally Issued Salary Advances                                                  FF-AR-10-122



                                APPENDIX B: DETAILED ANALYSIS

Some Salary Advances Were Avoidable or Should Not Have Been Issued

We found 64 salary advances totaling $33,026 the Postal Service should not have
issued or could have avoided.9 Specifically:

   Seventeen advances totaling $19,200 were issued to rural carrier associates at one
    unit because the supervisor forgot to enter their workhours in the Rural Time and
    Attendance Collection System (RTACS), leaving carriers without their salary check.
    The supervisor was subsequently issued a letter of discipline. Additionally, while the
    district Time and Attendance Collection System (TACS) coordinator manually
    obtains the Pay Period Status Report from TACS, she did not obtain the Missing
    Certificates Report from RTACS.10 The Pay Period Status Report provides the status
    of clock ring data and helps identify employees who do not have any clock rings for
    that pay period. While this report is only available in TACS, obtaining a Missing
    Certificates Report from RTACS would provide similar information. The TACS
    coordinator stated she has incorporated the procedure to also obtain the Missing
    Certificates Report in the future to help detect non-submission of rural carrier time.

   Forty-six grievance settlement prepayments11 totaling $11,226 were issued at one
    unit because supervisors took more than 60 days to enter settlement information into
    the Grievance Arbitration Tracking System (GATS).12 In this unit, only one
    supervisor had access to the GATS system and could only enter data if the other
    supervisors relayed the grievance settlement information to her timely. Because the
    other supervisors did not do this, the unit was obligated to issue advances.

   One advance for $2,600 was improperly issued to a Highway Contract Route (HCR)
    contractor in January 2005.13 The instruction to issue advances was given by a
    former area finance manager because of delays in processing HCR contractor
    payments. The district finance manager indicated this was an isolated incident and
    the advance was repaid through a reduction in subsequent contract payments.14 As
    a result of our audit, the district finance manager issued instructions that under no


9
  Handbook F-101, Section 23-3.1.1, details the circumstances under which a salary advance can be authorized.
These include when an employee receives a salary check that is substantially less than the amount due, an
employee does not receive a salary check when the check is listed in the payroll register as being issued, or new
employees (including casuals) who do not receive a salary check due to a late Postal Service Form 50, Notification of
Personnel Action.
10
   City carriers’ time is entered in TACS and rural carriers’ time is entered in RTACS.
11
   If an employee is not paid within 60 days after submitting all the necessary grievance settlement documentation,
then an interim emergency salary advance equal to 65 percent of the gross amount due may be issued.
12
   Management uses the Grievance and Arbitration Tracking System to locally authorize and process informal and
grievance payments.
13
   A highway contract route service provides for the transport of mail between post offices or other designated points
where mail is received or dispatched.
14
   We verified during the audit that the advance was repaid.




                                                          8
Evaluation of Locally Issued Salary Advances                                                   FF-AR-10-122



     circumstances should an HCR be paid from local funds and to contact his office in
     the event that units are directed to do so.

In many of these instances, salary advances and grievance settlement prepayments
were issued because workloads were not effectively managed. In another case,
management knowingly violated Postal Service policy in issuing the advances, but this
does not appear to be widespread. When controls are not functioning as prescribed, the
Postal Service has an increased risk of financial losses.

Outstanding Advances Were Not Promptly Collected

Salary advances were not always monitored or promptly cleared.15 Of the 50 units we
sampled, personnel at 33 units needed to collect $333,816 in outstanding salary
advances. These advances were issued between October 2000 and June 2009. As a
result of our audit, of the $333,816 outstanding, management took action to collect or
eliminate $146,765, leaving $187,051 outstanding.16 Furthermore, of the $187,051,
there was $78,900 in advances that were unsupported. Specifically, 18 units could not
provide supporting documentation for 79 salary advances. According to records
retention requirements, documents need only be kept for 2 years.17 In most cases,
these advances were more than 2 years old and have been, or will likely be, written off
as uncollectible. Had supervisors been actively monitoring employee items, they may
have been able to collect these advances and avoided a bad debt expense. We
consider all $333,816 to be questioned costs, with $78,900 of that being unrecoverable
unsupported questioned costs. See Appendix C for a break-out of the monetary impact.

Personnel provided various reasons as to why they did not promptly collect advances.
These included:

    Supervisors were unaware of the outstanding advances because they were issued
     prior to their assignment at that unit.

    Supervisors did not always make clearing outstanding advances a priority.

    Employees were detailed into supervisory positions without prior knowledge of
     financial activities and were not aware of the requirement to identify and monitor
     salary advances.

    Supervisors did not always know who was responsible for collecting advances for
     employees located at processing and distribution centers. In these instances, there

15
   Handbook F-101, Section 15-1.3, states that, at least once a month, the postmaster, manager, supervisor or
designated employee must reconcile, research, and resolve differences for employee items in the Accounting Data
Mart or the Customer Trust and Employee Narrowcast Report.
16
   Eliminating or writing off the outstanding salary advance occurred due to a variety of reasons, including the fact
there was no longer any supporting documentation for the debt.
17
   According to Electronic Records and Information Management System (eRIMS), Postal Service (PS) Form 1412,
Daily Financial Report, and PS Form 1608, Emergency Salary Authorization, are to be retained for 2 years.




                                                           9
Evaluation of Locally Issued Salary Advances                                              FF-AR-10-122



     was sometimes confusion as to whether the retail unit issuing the salary advance
     should collect the advance or the plant employee’s supervisor who approved the
     salary advance should collect it.

In addition, finance officials in various districts have given differing answers as to whom
they believe had the responsibility for collecting these advances. Some said the retail
unit was responsible, regardless of who approved the advance, and others have stated
the supervisor approving the advance was responsible. Further, two officials believe it
should be the shared responsibility of both the retail unit and plant supervisors. We
believe a key component of effectively managing salary advances is having a clear
understanding of who is responsible for collecting advances.

Specifically, Handbook F-101 states that the office issuing the advance is responsible
for collecting the advance.18 However, the Employee and Labor Relations Manual states
the postmaster or installation head is responsible for collecting any debt owed to the
Postal Service by an employee.19 In our opinion, the application of this policy is unclear
for advances to employees who do not report to retail unit management. For example,
an advance may be issued to a plant employee. According to postal policy, the
appropriate forms are filled out by the employee and approved by his or her supervisor,
which is then presented to the retail unit for the issuance of the advance. On one hand,
policy identifies the unit issuing the advance — in this case, the retail unit — as being
responsible for collection. On the other hand, postal policy states the installation head
— which would be plant management — is responsible for collection. This circumstance
occurs more frequently at retail units co-located with processing and distribution
centers.

Unlike advances issued in AIC 554, Payroll Adjustment Payment Issued, which are
collected automatically through the payroll process, salary advances issued when entire
checks are missing using AIC 754, Authorized Emergency Salary Issued, are collected
manually by the local supervisor. The prevailing difficulty of collecting advances locally
could potentially be mitigated through an automated collection process similar to that
performed for advances issued in AIC 554. Further, the unit’s use of either AIC 754 or
AIC 554 was optional at first, which created confusion.

As discussed with Postal Service personnel, the use of AIC 754 was intended to be
infrequent and, thus, local collection efforts were expected to be minimal. There were
over 7,000 advances totaling $5.9 million issued in AIC 754 in fiscal year 2009,
representing almost one-fourth of the total number of salary advances issued. Although
some of these advances may have been erroneously entered into AIC 754, the result is
that supervisors must collect them locally, a process that has consistently proven more
difficult than an automated collection process.

18
   Handbook F-101, Section 23-3.2.3 revised the language to state that the supervisor of the unit reporting the
emergency salary issued is responsible for local collection.
19
   Employee and Labor Relations Manual Issue 20, November 2009, updated with Postal Bulletin revisions through
October 22, 2009.




                                                       10
Evaluation of Locally Issued Salary Advances                                                      FF-AR-10-122




The local collection procedures for AIC 754 advances sometimes put undue strain on
supervisors to devote time and energy to tracking down employees to repay their
advances. It seems the longer the advance remains outstanding, the more resources it
takes to collect. Two Postal Service finance officials told us they recognize the
importance of controlling costs and, as a result, are taking steps to better monitor and
clear advances. One district finance manager stated he requires all salary advance
supporting documentation to be submitted to his office for review. Another district
financial control and support manager implemented a procedure at a retail unit
co-located with a plant where plant management receives the daily Point-of-Service
(POS) One20 Unresolved Employee Items report. This report is part of the closeout
documents printed daily and is filed at the retail unit and not normally distributed. This
financial control and support manager felt that providing this report to plant
management would help ensure that management could monitor outstanding advances
issued to plant employees and take action to clear them promptly.

Another Postal Service official told us that management discussed the idea of
automating the AIC 754 collection process in the past. We believe that, in light of the
serious financial situation of the Postal Service, any opportunity management can take
to revisit process changes that can help reduce costs and better utilize human capital
resources should be seriously considered. Until such an automated process is
implemented, though, we believe the Postal Service should issue clarifying instructions
regarding advances issued to non-retail employees.




20
     POS is the electronic system used at retail facilities to record sales and payment transactions.




                                                             11
Evaluation of Locally Issued Salary Advances                                                 FF-AR-10-122



                                APPENDIX C: MONETARY IMPACTS

            Finding              Impact Category                                            Amount
               2    Recoverable Questioned Costs21                                          $254,916
                    Unrecoverable Unsupported Questioned
               2                                                                               78,900
                    Costs22

                          TOTAL                                                             $333,816




21
  Recoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.
22
  Unrecoverable cost that are unnecessary, unreasonable, or an alleged violation of law or regulation. These costs
are also not supported by adequate documentation.




                                                         12
Evaluation of Locally Issued Salary Advances               FF-AR-10-122



                       APPENDIX D: MANAGEMENT’S COMMENTS




                                               13
Evaluation of Locally Issued Salary Advances        FF-AR-10-122




                                               14
